December 7, 2010

DAVID E. WILLIAMS
VICE PRESIDENT, NETWORK OPERATIONS

JOSEPH D. MOELLER
MANAGER, REGULATORY REPORTING & COST ANALYSIS

SUBJECT: Audit Report – Periodicals Mail Costs
         (Report Number CRR-AR-11-001)

This report presents the results of our audit of the U.S. Postal Service’s Periodicals mail
costs (Project Number 10RG008CRR000). Our objectives were to (1) determine
whether Postal Service data collection systems and procedures accurately attribute
costs to Periodicals and (2) review Postal Service operations that affect manual
processing of Periodicals. This self-initiated audit addresses financial and operational
risk. See Appendix A for additional information about this audit.

The Periodicals mail class consists of magazines, newspapers or other publications that
meet specific eligibility criteria.1 Periodicals are considered a preferred mail class
because of their educational, cultural, scientific, and informational value. There are two
categories of Periodicals: Outside County and Within County.2 Approximately
90 percent of Periodicals qualify for Outside County pricing. The remaining 10 percent
of Periodicals publications are generally delivered to local Postal Service facilities for
distribution within the same county and qualify for Within County pricing.

The Postal Accountability and Enhancement Act (the Act) of 2006 directed the Postal
Service and the Postal Regulatory Commission (PRC) to study and submit to the
president and Congress a report on the quality, accuracy, and completeness of the
information the Postal Service uses to attribute costs to Periodicals and any
opportunities to improve the transport and processing of Periodicals. That study is in
progress, but the PRC has not yet completed it yet.
1
  Approximately 90 percent of Periodicals are classified as flat-sized mail, which are mailpieces that exceed the
dimensions for letter-size mail but do not exceed the maximum dimension for the mail-processing category. Other
types of flat-size mail include Express Mail, Priority Mail, First-Class Mail, Standard Mail, and three Package Services
Products (Media Mail, Bound Printed Matter, and Library Mail).
2
  Outside County charges are based on entry point, destination, and depth of sortation, with separate bundle and
container charges. Bundle and container charges do not apply to Within County publications, which must, in general,
have a circulation of less than 10,000 copies or 50 percent of the circulation distributed within the county of
publication.
Periodicals Mail Costs                                                                     CRR-AR-11-001



Conclusion

Even though Periodicals volume has decreased and automation and mailer preparation
efforts have increased, manual costs attributed to Periodicals continue to rise. We
identified several reasons for these increases in manual processing costs, including:

        The “Hot 2C”3 program management instituted to provide expedited processing.
        Missed Critical Entry Times (CETs) by the mailers.
        Bundle breakage and preparation problems.
        Mailpiece characteristics that make them non-machinable.

Additionally, we found that Processing and Distribution Center (P&DC) personnel do not
consistently report these issues in the Electronic Mail Improvement Reporting (eMIR)
system4 so management can take corrective action. Management is taking some action
to address these issues, including revising mailing standards and price eligibility for
commercial flats that fail to meet deflection5 standards and are, therefore,
non-machinable. In addition, management has initiated a Lean Six Sigma6 review of the
Periodicals process.

Finally, we found that Postal Service data collection systems and procedures accurately
attribute costs to Periodicals based on the existing cost attribution models. Specifically,
the costs used in this process are reconciled to the financial statements, the data
obtained from the In-Office Cost System (IOCS)7 is consistent with prior year results,
and the data and any system changes are submitted to the PRC for review and
approval.

Manual Processing

Increases in manual processing costs attributed to Periodicals require further
investigation. For example, manual processing costs attributed to Periodicals increased
by 4.5 percent ($10.4 million) and 3.6 percent ($8.6 million) in fiscal years (FYs) 2008
and 2009, respectively, even though Periodicals Outside County flats volume declined
by 3.6 percent and 8.6 percent in FYs 2008 and 2009, respectively. In addition,
Periodicals mail is now being prepared more efficiently (co-mailing, co-binding, co-
palletization, and sack reduction) and mailers have increased the percentage of pre-
sorted Periodicals volume to levels that should require little to no automated or manual
processing. Interested parties have attributed the increase in manual processing to an

3
  “2C” is a reference to Periodicals’ former classification as Second-Class (2C) Mail.
4
  A PostalOne! System application that provides a process for operations to notify mailers, bulk mail entry units, and
Business Service Network representatives of irregularities in the preparation of mail.
5
  Minimum flexibility standards for a mailpiece to qualify as a flat; in general, the piece must bend (deflect) 1 inch
without breaking.
6
  A continuous improvement methodology that combines Lean methodologies and tools to identify waste with Six
Sigma methodologies and tools to improve business processes.
7
  IOCS is the primary data collection system; other data collection systems include the City Carrier Cost System, the
Transportation Cost System, and the Management Operating Data Collection System (MODS).




                                                           2
Periodicals Mail Costs                                                                  CRR-AR-11-001



operational condition referred to as “automation refugees.” They allege this includes
“idle” mail processing employees who are assigned to manually process Periodicals
even though automated processing is available. While we did not observe this condition
at the six locations we visited, nor did our review of applicable data conclusively identify
this situation, we believe this warrants further investigation by management.

We did see evidence of operational activities that likely result in increased manual
processing of Periodicals. The “Hot 2C” program, which was established to expedite
processing, and issues with mail preparation could both be resulting in increased
manual processing within the plants. Other mail preparation and processing issues
could also be resulting in increased manual processing.

”Hot 2C” Program

There was an unofficial “Hot 2C” or “Hot Periodicals” program at each of the six
facilities we visited, which provided selected publications with expedited mail processing
treatment. The unofficial “Hot 2C” program is intended to highlight the guaranteed
delivery day for various Periodicals, but managers have expanded it to expedite
processing (including manual processing) for certain publications.

Each facility uses slightly different procedures to maintain and update the “Hot 2C” lists
but, in general, publications are placed on the list based on requested delivery days
because:

       Local or national Business Service Network (BSN) personnel requested the
        inclusion in response to frequent missed delivery complaints from customers or
        mailers; or

       External measurement services8 monitor selected publications for service
        performance.

Based on our discussions with management, we believe this unofficial program exists at
the majority of Postal Service processing facilities. These informal procedures increase
mail processing costs and may distort service performance measurements for
Periodicals.

Increased manual processing can occur due to management’s emphasis on meeting
guaranteed delivery days and service performance goals. Additionally, including Red
Tag Monitoring Service and Del-Trak System publications on “Hot 2C” lists can result in
misleading Periodicals service performance results.



8
  Service performance is measured using two external measurement systems. A not-for-profit association operates
the Red Tag Monitoring Service to monitor service for its association members, while Time, Incorporated operates
the Del-Trak System to monitor service for several of its publications.




                                                        3
Periodicals Mail Costs                                                   CRR-AR-11-001



Other Processing Issues

Management identified missed CETs, bundle integrity issues, and mailpiece
characteristics as operational conditions that can lead to increased manual processing
of Periodicals. However, these operational issues were not always reported in the eMIR
system, which would allow management to identify and address systemic mail
preparation issues.

Missed CETs — One facility identified missed CETs as a factor that increased manual
processing of Periodicals at the facility. At the destination processing facilities the CET
is the latest time a Periodicals mailing can arrive and meet service standards for mail
processing, dispatch, and final delivery. When a Periodical mailing misses a CET, the
facility may be unable to process the mailing with the Automated Package Processing
System (APPS) or Small Parcel Bundle Sorter (SPBS) and the mailing is processed
manually at the P&DC or sent to delivery units for manual sortation. As a part of a
Postal Service Periodicals Lean Six Sigma review, management will evaluate
establishing a national CET for Periodicals (as opposed to the current practice of locally
established CETs).

Bundle Packaging Problems — Bundle integrity issues also contribute to increased
manual processing of Periodicals. Current mailing standards state that bundles can be
secured with plastic bands, rubber bands, twine, string or shrink-wrap. However
secured, the bundles must withstand normal transit and handling without breaking.9
Four of the six facilities identified problems with bundle breakage or shrink-wrapped
bundles. The four facilities identified Periodicals publications whose bundles they
routinely process manually because they either break during APPS or SPBS processing
or the shrink-wrapped bundles obscure the delivery address or bundle labels. Figures 1
through 4 depict bundle preparation and manual bundle processing issues we observed
at the Baltimore and Atlanta P&DCs.




9
    Domestic Mail Manual, Chapter 7, Periodicals, Section 19, Bundles.




                                                           4
Periodicals Mail Costs                                               CRR-AR-11-001




    Figure 1. String from Broken Bundles       Figure 2. Shrink-wrap Obscures Address and
        Entangled in APPS Machine                                Barcode




                                                               Shrink wrap covers
                                                               address and barcode




     Figure 3. Broken Bundles Manually              Figure 4. Broken Bundles Manually
                 Processed                                      Processed




Mailpiece Characteristics — The six P&DCs also identified mailpiece characteristics
— such as the size, shape or material — as factors that contribute to the need to
manually process Periodicals. Management identified certain publications that, from
prior experience, they are unable to process on automated equipment, such as the
Automated Flat Sorter Machine (AFSM) 100 or the Upgraded Flat Sorter Machine
(UFSM) 1000. These mailpieces, frequently newspaper-shaped publications, are
processed in manual flats operations. Based on FY 2009 IOCS statistical testing results,
about 39 percent of the manual handling costs at P&DCs were associated with
newspaper-shaped publications.




                                           5
Periodicals Mail Costs                                                                     CRR-AR-11-001



We examined postage statements for nine national publications the facilities routinely
process manually. We estimate the national publications mailed about 34.8 million flats
mailpieces a year. Over a 1-year period, we estimate the difference in postage between
the machinable and non-machinable flats rates totaled approximately $1 million for
these nine publications. If this condition exists in 5 percent of the universe of the
7.2 billion Periodicals flats mailpieces processed in FY 2009, the difference between the
machinable and non-machinable flats rates could total as much as $28.3 million.10

The Postal Service, due to the difficulties in processing certain flats, revised its mailing
standards and price eligibility on June 7, 2010, for commercial flats that fail to meet the
new deflection standards. However, the Postal Service delayed implementation of the
revised price eligibility to October 3, 2010, as it worked with mailers to ensure flats
preparation that is compatible with Postal Service processing and handling procedures.
While the new deflection standards may alleviate some of these issues, it will be difficult
for some publications, such as newspapers, to fully comply with them; therefore, the
new standards will not resolve many of the issues noted in this report. See Appendix B
for our detailed analysis of this topic.

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Cost Attribution, to coordinate with Operations to:

1. Determine the extent of changes in operational conditions associated with
   Periodicals and their impact on Periodicals cost attributions.

We recommend the vice president, Network Operations, direct the manager, Processing
Operations, to:

2. Issue guidance to processing facilities that emphasizes managing the expected
   delivery dates and eliminates using the “Hot 2C” program to provide expedited
   processing or manual processing for select publications.

Inconsistent eMIR System Reporting

Although each facility manager identified publications that they routinely process
manually because of mail preparation, mail characteristics or missed CETs, they did not
document these discrepancies in the eMIR system. The six facilities we visited entered
only 91 eMIR system reports during a recent 6-month period. The 91 reports consisted
of 5 missed CETs, 15 bundle preparation issues, and 71 shipment discrepancies. No
reports were put into the eMIR system regarding flats with mailpiece characteristics that
resulted in them being non-machinable.

The Postal Service and the mailing industry developed the eMIR system to identify
issues impacting efficient mail processing and inform process owners of identified
10
 7.2 billion Periodicals flats mailpieces x 5 percent x $.0785 cents (the average difference between the eight
machinable and non-machinable postage rates).




                                                          6
Periodicals Mail Costs                                                           CRR-AR-11-001



deficiencies. Postal Service procedures state that the Postal Service should use the
eMIR system to report quality issues and other recurring problems with Periodicals,
such as broken bundles. Employees should use the process when there is a quantity of
improperly prepared mail that could impact the efficient processing or delivery of the
mail.11 These reports help ensure that bulk mail entry unit (BMEU) personnel (who
determine whether bundles meet mail preparation standards) are informed of mail
preparation issues. BMEU acceptance employees are responsible for verifying that
Periodicals mailers have submitted mailings prepared according to the appropriate
standards. As part of this verification, the mailer’s account is examined and eMIR
system reports are displayed. BMEU personnel then must examine the submitted
mailing for errors similar to those previously reported in the eMIR system. During an
examination of the mailpieces, personnel verify, among other things, barcode visibility
requirements, machinable criteria, and proper bundle preparation. If employees identify
errors, they hold the mail until the issue is resolved. The employees must inform the
mailer of the errors, provide feedback on cause of errors and corrective measures, and
obtain disposition. The mailer may either rework the mailing or pay additional postage.

The goal of the eMIR system is to link all process owners (BMEU, Operations, the BSN,
and mailers) and correct identified deficiencies. For example, for the new flats deflection
standards the Postal Service stated they would provide feedback to mailers through the
eMIR system so they could correct mailpieces that fail the new deflection standards.
During our visits, we observed routine manual processing of Periodicals bundles at two
facilities.

Management at the facilities stated they did not use the eMIR system for a variety of
reasons, such as:

          It is easier and they receive quicker feedback if they contact the BSN or mailer
           directly; and

          They were reluctant to report problems because eMIR system guidance states
           that employees should report important/serious problems or issues and the
           facilities did not always consider the bundle preparation, bundle breakage, and
           mail characteristics as important/serious problems.

In addition to the problems that occur when employees do not use the eMIR system, we
also found that the system currently has very limited search and reporting capabilities,
making it difficult to quantify the issues we identified nationwide. The Postal Service is
currently redesigning the eMIR system and it will have significantly improved search and
reporting capabilities in the future.

The eMIR system is an important tool for correcting missed CETs, bundle preparation
and breakage issues, and mailpiece characteristic problems. Using the eMIR system

11
     Standard Operating Procedures for Periodicals Processing, April 24, 2006.




                                                           7
Periodicals Mail Costs                                                CRR-AR-11-001



provides documented corrective feedback to mailers and assists in reduced processing
costs by identifying systemic processing issues. The Postal Service and mailers can
then address these issues. Other processing facilities may have similar issues with
specific publications and reporting the issues in the eMIR system would help identify
nationwide systemic issues that need to be resolved. Additionally, by directly contacting
the BSN or mailer, facilities may be bypassing the BMEU accepting the mailings. If the
bundles or mailpieces cannot be processed on mechanical or automated equipment,
BMEU personnel should be alerted to ensure that bundles and mailpieces meet Postal
Service standards and that mailers are paying the correct machinable or non-
machinable rates.

The previously mentioned Lean Six Sigma review and the revised deflection standards
are two Postal Service initiatives that should address some of these operational
conditions.

We recommend the vice president, Network Operations, direct the manager, Processing
Operations, to:

3. Re-emphasize use of the Electronic Mail Improvement Reporting System to
   processing facility personnel and define the types of issues that should be reported.

Cost Attribution

Postal Service data collection systems and procedures accurately attribute costs to
Periodicals based on the existing cost attribution models. Specifically, the costs used in
this process are reconciled to the financial statements and the data obtained from the
IOCS is consistent with prior year results. Additionally, the data and any system
changes are submitted to the PRC for review and approval.

Management’s Comments

Management agreed with the recommendations and stated there were ongoing efforts
to analyze operational conditions and their impact on cost attribution. Management also
stated that they do not endorse practices that force Periodicals handling out of the
automated processing stream and into less efficient manual processes. The target date
for issuing “Hot 2C”guidance is April 2011. Management further stated they will develop
eMIR system training guidance, in conjunction with the eMIR system redesign, by
May 2011. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

We consider management’s comments responsive to the recommendations and the
actions taken should correct the issues identified in the report.




                                             8
Periodicals Mail Costs                                             CRR-AR-11-001



The OIG considers recommendations 2 and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Revenue, Rates, or me at 703-248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems


Attachments

cc: Steven J. Forte
    Joseph Corbett
    Frank Neri
    Jeffrey L. Colvin
    Corporate Audit and Response Management




                                           9
  Periodicals Mail Costs                                                                       CRR-AR-11-001



                                APPENDIX A: ADDITIONAL INFORMATION

  BACKGROUND

  Beginning in 1792, Congress provided Periodicals mailers with preferred mailing rates
  that were lower than their delivery costs. Initially, Congress funded these postage
  subsidies through annual appropriations. Between 1792 and 1969, Congress enacted
  legislation that focused on developing criteria that would define the differences between
  Periodicals and non-Periodicals for the purpose of these subsidies. Congress enacted
  the Postal Reorganization Act (PRA) of 1970 which resulted in major changes, including
  abolishing the Post Office Department and replacing it with the U.S. Postal Service.
  Under the PRA, Periodicals — along with all mail classes — were to “bear the direct
  and indirect postal costs attributable to that class or type plus that portion of all other
  costs of the Postal Service reasonably assignable to such class or type.” The PRA
  established timetables for phasing out Periodicals subsidies, initially a 5-year period but
  later extended to an 8-year period. In 1976, Congress amended the PRA and required
  the PRC to consider additional criteria when setting postage rates — “the educational,
  cultural, scientific, and informational (ECSI) value to the recipient of mail matter.” The
  PAEA of 2006 also included the ECSI provisions.

  Since FY 2000, Periodicals’ revenue has not covered its attributable costs.12 In FY
  2000, Periodicals' revenue covered about 89.2 percent of attributable costs. Cost
  coverage rose to 98.7 percent in FY 2003 and declined to 76.1 percent in FY 2009,
  resulting in a cumulative loss of over $2.2 billion from FY 2000 through FY 2009.
  Contributing to this decline in cost coverage was a 23 percent decline in Periodicals
  volume, from 10.4 billion pieces in FY 2000 to 8 billion pieces in FY 2009. Table 1
  illustrates Periodicals revenue, costs, cost coverage, and volume for FYs 2000 through
  2009.

                 Table 1. Periodicals Revenue, Costs, and Volume (billions)
                                   and Cost Coverage13

                                                                   Fiscal Year
                       2000       2001      2002       2003       2004      2005      2006      2007       2008          2009
Revenue                 $2.17     $2.21     $2.16      $2.23      $2.19     $2.16     $2.22     $2.19       $2.29        $2.04
Costs                   $2.28     $2.43     $2.36      $2.26      $2.39     $2.51     $2.57     $2.64       $2.73        $2.68
Volume
                         10.4      10.1        9.7        9.3       9.1        9.1       9.0       8.8         8.6         8.0
(Pieces)
Cost Coverage
                       89.2%     90.3%      91.8%     98.7%       91.7%    85.9%     86.2%      83.0%      84.0%         76.1%
Percentage




  12
     Postal Service costs directly associated with a product including volume variable costs (which vary directly with
  volume changes) and product-specific costs (which do not vary with volume changes).
  13
     PRC methodologies used for all years.




                                                             10
Periodicals Mail Costs                                                                     CRR-AR-11-001



Service commitments for Periodicals delivery range from 1 to 7 days depending on the
origin and destination ZIP Codes. The Postal Service measures service performance
using two external measurement systems. A not-for-profit association operates the Red
Tag Monitoring Service to monitor service for its association members while Time,
Incorporated operates the Del-Trak System to monitor service for several of its
publications.

Recent economic and technology-driven changes have affected the Periodicals mailing
industry, causing significant drops in Periodicals advertisements, less weight per piece,
and a corresponding reduction in postage revenue for the Postal Service. In FY 2009,
mailers sorted about 56 percent of Periodicals mail to carrier routes that require little to
no mechanical or automated processing. In July 2007, the Postal Service implemented
new prices and mailing standards for Periodicals mail that increased the complexity of
the pricing structure. In addition to the existing piece and pounds rates, new bundle and
container rates were implemented. The bundle and container rates varied based on
presort level and point of entry and were designed to recognize the cost difference
between handling various types of containers and bundles. The rate increase averaged
11 percent for the entire Periodicals mail class.

Despite collaborative efforts with the mailing industry to reduce mail preparation and
processing costs, the Postal Service lost $642 million during FY 2009 in handling
Periodicals mail.

P&DCs can receive Periodicals directly from mailers (drop-shipped) or from other Postal
Service facilities (primarily Network Distribution Centers and other PDCs) for distribution
to the ZIP Codes designated for their local delivery. Periodicals arriving on pallets or in
sacks, bundles14 or trays can be sorted to area distribution centers, 3-digit Zip Code
areas,15 sectional center facilities, or 5-digit ZIP Code areas,16 and Firm17 and carrier
route18 destinations. Carrier route, Firm, and direct 5-digit bundles that require no
additional mechanical or automated sortation are dispatched directly to delivery units.

Flat mail bundles arriving on pallets are generally processed in a primary sort in an
APPS or a SPBS bundle sorting operation. Once separated, incoming Periodicals that
qualify as automated flats should be processed on the AFSM 100 or, because of size or
weight limitations, on the UFSM 1000. Non-automated mailpieces, such as culls, mail
outside the AFSM 100 or USFM 1000 specifications, and rejects from AFSM 100s or
USFM 1000s are processed in manual flat operations.


14
   A group of addressed pieces secured together as a unit. Bundle preparation standards allow bundles to be
secured with plastic or rubber bands, twine, string, and similar material. The bundles must withstand normal transit
and handling without breaking and without causing injury to Postal Service employees or damage to equipment.
15
   The ZIP Code in the delivery address on all pieces begins with the same three digits.
16
   The ZIP Code in the delivery address on all pieces includes the same five-digit ZIP Code.
17
   Two or more copies for the same business address placed in one bundle, all pieces within a “firm” bundle are for
delivery to the address shown on the top piece.
18
   Sorted by carrier route and requires no primary or secondary distribution.




                                                          11
Periodicals Mail Costs                                                                      CRR-AR-11-001



The Postal Service is deploying the Flats Sequencing System (FSS), a new technology
intended to increase efficiencies in the processing, distribution, and delivery of flats. The
FSS will automatically sort flat-shaped mail into delivery point sequence at high speeds.
The Postal Service is currently installing 100 FSS machines at 47 sites. Periodicals that
meet new addressing standards and standards for Periodicals automated processing
can be processed on FSS machines.

Most Postal Service mail processing plants report operational data through MODS,
which is used in apportioning costs to various cost pools19 and classes of mail. MODS is
used to gather, report, and store data on workload, workhours, and machine use.
Workhours are taken from the Time and Attendance Collection System while mail
volume is obtained from the Web End of Run application.

The web-based eMIR system is a process for notifying business mailers of irregularities
in the preparation of mail they present to the Postal Service. When processing
operations identifies a problem in the preparation of a mailing, they enter the information
into the eMIR system module in the PostalOne! System. Reports for managed accounts
are routed to the BSN and are also visible to the BMEU where the mailing was entered.
Reports for non-managed accounts are routed to the BMEU where the mailing was
entered. BMEU personnel enter the results of their actions regarding the eMIR system
report into the eMIR system.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to (1) determine whether Postal Service data collection systems
and procedures accurately attribute costs to Periodicals and (2) review Postal Service
operations that affect the manual processing of Periodicals.

To determine whether Postal Service data collection systems and procedures
accurately attribute costs to Periodicals we interviewed management, assessed controls
over the data collection systems, and examined the methodologies and procedures
used to attribute costs to Periodicals.

To assess controls over the data collection systems, we reviewed the available policies
and procedures for the major data collection systems. In addition, we examined FY
2008 and FY 2009 IOCS proportions and FY 2009 IOCS test results.

To determine the reliability of product estimates produced by the data collection
systems, we reviewed the FY 2008 and FY 2009 coefficients of variation.

To examine how Periodicals costs are attributed we reviewed the Cost Segment and
Component Reconciliation to Financial Statements and Account Reallocation for
FY 2009, identified the general ledger accounts, and reconciled the account/subaccount
19
  Groups of operations or activities that are similar in terms of type of work being performed and characteristics of
the mail being processed.




                                                           12
Periodicals Mail Costs                                                                      CRR-AR-11-001



from an Enterprise Data Warehouse extract report of FY 2009 to the reconciliation
worksheet of the cost segment. Specifically, we traced costs attributed to cost segments
3, 6, and 14 by segment or component from the Cost and Revenue Analysis “B”
workpapers20 and matched their respective attributable cost as identified in the source
general ledger accounts.

To analyze the cost pools we performed a comparative analysis on selected pools to
determine their shares relative to the Postal Service’s total volume variable cost for
each pool. In addition, we performed a comparative analysis on selected cost pool
volume variable costs and their percentage changes in FY 2008 and FY 2009.
Furthermore, to account for volume decline and determine the magnitude of the
changes in a cost pool, we examined flats unit costs for Outside County Periodicals
reported in the Cost and Revenue Analysis Reports for FYs 2007 through 2009.

To review Postal Service operations that affect the manual processing of Periodicals,
we conducted site visits at the Atlanta, Baltimore, Columbus, Dominick V. Daniels, New
York Morgan, and Minneapolis PDCs. We judgmentally selected the six PDCs based on
the relatively high number of IOCS tests conducted at those facilities in FY 2009 and the
high volume of Periodicals processed at those facilities. At each facility, we analyzed
FY 2009 MODS and IOCS test results, observed Periodicals processing, and
interviewed management.

To determine the extent to which mailers received automation (discounted) rates for
manually processed mail, we identified national publications that were routinely
processed manually at one or more of the facilities. For the nine national publications,
we extracted four FY 2010 postage statements21 (one each quarter) from the
PostalOne! System and calculated the difference between the machinable and non-
machinable flats rates for mailpieces that received the lower machinable flats postage
rates. To determine the extent that facilities use the eMIR system, we reviewed
Periodicals eMIR system reports for a 6-month period January 1 through June 30, 2010.

We conducted this performance audit from January through December 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We performed analytical and comparative tests on automated data we
received. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on November 10, 2010, and included their
comments where appropriate.

20
   The CRA “B” workpapers produce some product attributable costs for 13 of the 18 cost segments, including
Postmasters, Supervisors, Clerks and Mail Handlers, In-Office City Carrier Activities, City Carrier and Rural Carrier
Street Costs, Purchased Transportation.
21
   Postal Service Form 3541.




                                                          13
Periodicals Mail Costs                                            CRR-AR-11-001




PRIOR AUDIT COVERAGE

We did not identify any prior audits of Periodicals mail costs.




                                             14
Periodicals Mail Costs                                                                CRR-AR-11-001



                                    APPENDIX B: DETAILED ANALYSIS

Manual Processing

There are increases in Periodicals manual processing costs, which may be the result of
changes in operational conditions that requires further investigation. Costs attributed to
Periodicals manual flats processing have been increasing despite the Postal Service’s
and mailers’ efforts to increase the automated processing of flats. The Postal Service’s
efforts include deployment of additional FSS machines that will automatically sort
flat-sized mail into delivery point sequence at high speeds. In addition, more mailers are
participating in efforts to reduce processing costs through co-mailings, co-palletizations,
sacks reductions, drop shipment, and preparation of carrier-route sequenced mail that
should require little to no automated or manual processing.

In FY 2009, mail-processing costs accounted for 55 percent of all Outside County
Periodicals costs. In FY 2009, costs attributed to the manual processing of Periodicals
flats were estimated at $250.4 million. Almost all manual processing costs are captured
in three cost pools: MODS manual flats, non-MODS manual flats, and manual
distribution activities. While two of the cost pools are increasing, the third cost pool has
remained constant. Table 2 illustrates the share of manual flats processing costs
attributed to Periodicals and the portion of each cost pool attributed to Periodicals in
FYs 2007 through 2009.

                      Table 2. Periodicals Share of Manual Flats Cost Pools

                                      FY 2007                      FY 2008                    FY 2009
                                           Periodicals                  Periodicals                Periodicals
                              Costs                        Costs                        Costs
                                            Share of                     Share of                   Share of
                            (millions)                   (millions)                   (millions)
 Cost Pool                                  Cost Pool                    Cost Pool                  Cost Pool
 MODS Manual flats               $50,742        22.71%        $48,479        22.61%     $57,626         27.54%
 Non-MODS Manual
                                 122,947        21.38%        133,056        23.67%     139,127         27.42%
 flats
 Manual Distribution
                                  57,718        8.11%          60,259        8.99%       53,674         8.89%
 Activities (LDC 43)
 Manual
                                $231,407                  $241,794                    $250,427
 Processing Totals

The first cost pool, MODS manual flats, represents all manual flat sorting performed at
mail processing plants.22 In FY 2007, 22.7 percent of the manual flats costs at these
facilities were attributed to Periodicals. That percentage decreased slightly to 22.61
percent in FY 2008 and increased again in FY 2009 to 27.54 percent. Periodicals’ share
of manual flats sorting has been increasing, even though Periodicals mail volume
declined and a higher percentage of Periodicals were prepared by mailers at a level that
should require a minimum level of manual processing.

22
     MODS 1 and 2 facilities.




                                                         15
Periodicals Mail Costs                                                                   CRR-AR-11-001




The second cost pool, non-MODS manual, consists of manual flats distribution activities
at post offices, stations, and branches not associated with mail processing plants.23
These are generally small facilities that primarily perform manual mail processing
activities. Manual mail processing activities at these facilities that are attributed to
Periodicals have been increasing. In FY 2007, about 21.38 percent of manual flats
distribution at those facilities was attributed to Periodicals. The manual flats Periodical
distribution increased to 23.67 percent in FY 2008 and increased again in FY 2009 to
27.42 percent.

The third manual processing cost pool (LDC43) — manual distribution activities at post
offices, stations, and branches associated with mail processing plants — has remained
relatively constant. In FY 2007, about 8.11 percent of those costs were attributed to
Periodicals. That increased slightly to 8.99 percent in FY 2008 and declined slightly to
8.89 percent in FY 2009. 24

Management stated that there may be operational or other conditions causing
these increases in Periodicals manual flats processing. For example, removing
FSM 1000 machines and replacing them with higher speed AFSM 100
machines may have led to an increase in flats volumes needing a manual
sort25 or the share of pieces that are AFSM 100 machinable may have
declined. Over a 2-year period, (FYs 2007 to 2009) management removed
about half of the FSM 1000s from Postal Service facilities.

The Act directed the Postal Service and the PRC to jointly examine the rates for
Periodicals and to report on, among other things, the quality, accuracy, and
completeness of the information the Postal Service used in determining direct and
indirect postal costs attributable to periodicals; and identify opportunities to improve
efficiencies in the collection, processing, transportation, and delivery of Periodicals. This
review is ongoing.

The Postal Service should determine whether changing operational conditions cause
increases in manual processing costs attributed to Periodicals.

“Hot 2C” or “Hot Publications” Programs

While there is no authorized national “Hot 2C” program, it exists unofficially at many
sites and the publication titles, their treatment, and other activities vary by site and are
not reported at the headquarters level. Postal Service personnel estimate that there are
over 90 publications on the “Hot 2C” lists and the lists vary by site and have grown over
time.


23
     This cost pool also contains activities not classified as manual, primarily allied operations.
24
     This cost pool also contains activities not classified as manual, primarily allied operations.
25
     There is a small percentage of flat mail that is machinable on the FSM 1000 and not machinable on AFSM 100s.




                                                          16
Periodicals Mail Costs                                                   CRR-AR-11-001




Examples they provided of expedited treatment include:

       Dedicated staging, sort areas, and employees;

       Special placarding to prevent comingling;

       Manual sortation of machinable mailings;

       Separate bundle sort programs if automated;

       Bundles that should be sorted to the carrier route level instead being sent directly
        to delivery units for sorting; and

       Late arrivals that miss automated incoming secondary operations.

Each of the facilities we visited had some version of a “Hot 2C” program and the
number of publications on the lists ranged from seven to 131. Four of the facilities used
the lists to manage the in-home delivery dates for time-sensitive publications.
Additionally, four of the facilities used the “Hot 2C” program to monitor the delivery
performance of publications being monitored by the Red Tag Monitoring Service or Del-
Trak System.

At four of the six facilities, the “Hot 2C” lists are prominently displayed in the plants.
Figure 5 shows two “Hot 2C” lists at PDCs.

                         Figure 5. “Hot 2C” Signs at Two PDCs




                                              17
Periodicals Mail Costs                                   CRR-AR-11-001



                         APPENDIX C: MANAGEMENT’S COMMENTS




                                        18
Periodicals Mail Costs        CRR-AR-11-001




                         19
Periodicals Mail Costs        CRR-AR-11-001




                         20
